                                                             Uni ted States Department of State
                                                             and the Broadcasting Board of Governors

                                                             Office of Inspector General


                                                                    MAY 	271011

The Honorabl e Edward Drusina. U.S. Commissioner 

International Boundary and Water Commission 

United States and Mexico, U.S . Section 

4171 North Mesa Street, Suite C· J00 

El Paso , TX 79902-1441 


Dear commiSSi~:

The management letter related to the audit of the International Boundary and Water Commission, 

United States and Mexico, U.S. Section (U SIBWC), financial statements as o f and for the years 

then ended September 30, 2010 and 2009 (AU DfFM - II-28), is enclosed. This management 

letter, prepared by Clarke Leiper, PLLC (Clarke Leiper), an independent external auditor, 

discusses issues that were identified during the audit of the financial statements. These 

weaknesses, although o f concern, did not rise to the level necessary to be included in the report 

on the financial statement audit. Clarke Leiper has included USIBWC 's response to the draft 

management letter as Appendix B to the fin al report. 


The Office of Inspector General will not track the recommendations made in the management 

letter through its fonnal compliance process. However, the financial statement auditors will 

eval uate compliance during future audits o f the financial statements. 



If you have any questions, please contact Evelyn R. Klemstine, Assistant Inspector General for 

Audits, at (202) 663 -0372 or Gayle L. Voshell, Director of the Financial Management Division, 

at (703) 284-2681. 


Sincerely,



~
Harold W. Geisel 

Deputy Inspector General 



Enclosure: As stated.

cc: 	 RMlDCFO - Christopher H. Flaggs 

      WHNMEX - Russell L. Frisbie 

      Clarke Leiper, PLLC - Leslie A. Leiper 

  Management Letter Related to the

 Audit of the International Boundary

       and Water Commission,

United States and Mexico, U.S. Section, 

 2010 and 2009 Financial Statements 


      AUD/FM-11-28, May 2011 





        Clarke Leiper, PLLC
     Certified Public Accountants
        6265 Franconia Road
     Alexandria, Virginia 22310
            (703) 922-7622
                                                  CLARKE LEIPER PLLC
                                              CERTIFIED PUBLIC ACCOUNTANTS
                                                    6265 FRANCONIA ROAD
                                                  ALEXANDRIA, VA 22310-2510
                                                         703-922-7622
                                                       FAX: 703-922-8256
DORA M. CLARKE
LESLIE A. LEIPER


                                                     March 31, 2011


       To the United States Commissioner, 

       International Boundary and Water Commission,

       United States and Mexico, U.S. Section: 


       We (Clarke Leiper, PLLC) have audited the financial statements of the International Boundary and Water
       Commission, United States and Mexico, U.S. Section (USIBWC), as of and for the years ended
       September 30, 2010 and 2009, and have issued our report thereon dated March 31, 2011.1 In planning
       and performing our audit of USIBWC’s financial statements, we considered USIBWC’s internal control
       over financial reporting and compliance to determine our auditing procedures for the purpose of
       expressing an opinion on the financial statements and not to provide assurance on internal control.
       Accordingly, we do not express an opinion on the effectiveness of internal control related to financial
       reporting and compliance. We have not considered internal control since the date of our report.

       During our audit, we noted one matter involving internal control over financial reporting and compliance
       that we considered to be a significant deficiency under the standards established by the American Institute
       of Certified Public Accountants. We reported this deficiency in the report referenced.

       Our audit procedures were designed primarily to enable us to form an opinion on the financial statements
       and therefore may not identify all weaknesses in internal control that may exist. However, we would like
       to take this opportunity to use the knowledge we gained during the audit of USIBWC to provide
       comments and suggestions that we hope will be useful.

       Although not considered to be significant deficiencies, we noted certain matters involving internal control
       and other operational matters that are presented in Appendix A for your consideration. These
       observations are intended to improve USIBWC’s internal control or result in other operating efficiencies.

       This letter is intended solely for the information and use of USIBWC officials and the Office of Inspector
       General and is not intended to be, and should not be, used by anyone other than these specified parties.


       Very truly yours,




       Clarke Leiper, PLLC


       1
        Independent Auditor’s Report on the International Boundary and Water Commission, United States and Mexico,
       U.S. Section, 2010 and 2009 Financial Statements (AUD/FM-11-27, May 2011).
                                                                                 Appendix A
                                                                                  Page 1 of 5

                                 Management Letter Related to the

                          International Boundary and Water Commission, 

                              United States and Mexico, U.S. Section, 

                                2010 and 2009 Financial Statements 


                                 Observations and Conclusions

1. 	Property, Plant, and Equipment

The International Boundary and Water Commission, United States and Mexico, U.S. Section
(USIBWC), has taken steps to improve internal controls related to property and equipment.
However, personal property is developed from a source other than the general ledger. During
our reconciliation of the personal asset detail report to the consolidated trial balance, we
identified the following:

   •	 Nine leased vehicles that were erroneously recorded as purchased vehicles because
      the incorrect acquisition code was used.
   •	 One item that was processed for disposal but was not disposed of because of an error
      in the accounting system.
   •	 One item that was a duplicate of an item that was disposed of.
   •	 Three items that had negative current year depreciation.

In addition, as noted during previous year audits, the Property Officer has access to
recordkeeping and conducts the physical inventories of assets. USIBWC officials stated that
hiring an individual to perform one of these functions would not be cost effective.

We recommend that USIBWC perform more frequent reconciliations of property so that
errors are identified and corrections can be made before the preparation of the financial
statements.

We recommend that USIBWC establish separation of duties for recordkeeping and physical
inventories as personnel are available.

2. 	Accounts Receivable

During our testing, we identified several instances in which accounts receivable were not
recorded in the proper period.

We recommend that USIBWC ensure that accounts receivable transactions are recorded in
the proper period.

3. 	Undelivered Orders

We noted that USIBWC did not have adequate control over undelivered orders (UDO).
Management performed an assessment of open UDOs but failed to deobligate items it
identified as unnecessary. USIBWC does not have specific procedures that detail the UDO
                                                                                 Appendix A
                                                                                  Page 2 of 5

review procedures; rather, it follows requirements for the reviews contained in Department of
the Treasury and Government Accountability Office guidance.

We recommend that USIBWC create agency-specific procedures for reviewing undelivered
orders. The procedures should include the steps to be taken by management to ensure that
the unneeded obligations identified during the reviews are promptly deobligated.

4. 	Payroll Compliance

We identified the following discrepancies during our testing of payroll compliance:

   •	 Pay Rate Verification – The actual pay rate for three of 51 employees did not match
      the pay rate in the official personnel folders.
   •	 Premium Pay – The actual premium pay rates for three of five employees did not
      match the premium pay rates.
   •	 Retirement – The employee withholdings for 11 of 51 employees and the agency
      contributions for nine of 51 employees did not match the auditor’s calculations.
   •	 Health Benefits – The employee withholdings for two of 51 employees and the
      agency contributions for one of 51 employees did not match the auditor’s
      calculations.

Employees have the ability to make changes to their payroll withholdings electronically via
“Employee Express.” The Office of Personnel Management (OPM) has guidelines for filing
documents in personnel folders, including documentation of benefit enrollments processed
electronically. USIBWC is subject to OPM personnel recordkeeping authority.

We recommend that USIBWC develop an agency-specific policy for changes made by
employees to their benefits via Employee Express. This policy should include requirements
for employees to notify USIBWC of any enrollments processed electronically and to provide
OPM-approved documentation. These documents should be properly filed and maintained in
the personnel folders.

5. 	 Earned Revenue

Four of 12 earned revenue transactions sampled were recorded in the incorrect period.

We recommend that USIBWC ensure that earned revenue transactions are recorded in the
proper period.

6. 	Unexpended Appropriations

The method USIBWC uses to determine the correct unexpended appropriations balance is
not based on the amount listed in the general ledger. Although the process for determining
the appropriate balance was effective, USIBWC does not have documented standard
operating procedures for these accounts.
                                                                                 Appendix A
                                                                                  Page 3 of 5

We recommend that USIBWC develop account-specific standard operating procedures
relating to unexpended appropriations.

7. Journal Vouchers

We identified two weaknesses in the controls over journal vouchers and journal voucher
processing. USIBWC does not have standard operating procedures for processing journal
vouchers. Additionally, journal vouchers are prepared and approved by the same individuals.

We recommend that USIBWC prepare written procedures for processing journal vouchers
that will provide for separation of duties.

8. Environmental Liabilities

Although USIBWC has some directives in place that deal with environmental liabilities, the
directives do not specifically address procedures to recognize, estimate, and record
environmental liability amounts. In addition, Directive Volume III, Chapter 503 – “Pollution
Prevention Plan,” is outdated.

We recommend that USIBWC review Directive Volume III, Chapter 503 – “Pollution
Prevention Plan,” and consider revising it to reflect current and emerging issues and trends.
Additionally, USIBWC should create agency-specific standard operating procedures for
recognizing, estimating, and recording environmental liabilities.

Management Response and Auditor Reply

USIBWC management did not concur with two observations included in the Draft Report
that related to Accounts Payable (original observation 3) and Commission Authorization
Laws (original observation 6). In both cases, we identified transactions that were processed
without proper approval. USIBWC’s response stated that “required signatures exist on more
than one document for each transaction,” and USIBWC provided us with additional
documentation containing proper approvals for the questioned transactions. In addition,
USIBWC’s response indicated that it has implemented new policies to ensure that the
appropriate approvals “have been obtained prior to processing any payment for
disbursement.” Based on these actions, we removed the two observations from this report.
                                                                                          Appendix A
                                                                                           Page 4 of 5

                           Prior Year Management Letter Comments

During the audit of USIBWC’s 2009 financial statements, we identified matters that we
reported in a management letter.2 The observations identified during the 2009 audit remain
open. The status of the 2009 findings is presented in Table 1.

Table 1. Status of Observations From the FY 2009 Management Letter
       Observation                                                                               FY 2010
                                     FY 2009 Observation                      Status
        Number                                                                                   Comment
1. Property, Plant,      Although USIBWC has taken steps to improve
    and Equipment        internal controls related to property and             Open          See observation 1.
                         equipment, we continued to find deficiencies.
                         Accountability for property located at field
                         offices has been a longstanding concern. The                        .
                         physical inventory reports provided by
                         USIBWC's Property Officer identified several
                         findings relating to the accountability over
                         personal property. During our testing, we
                         noted one item that could not be traced to the
                         listing of assets. We also noted that 5 of 19
                         items tested had minor differences in the
                         valuation. In an effort to correct these
                         deficiencies, the Property Officer has provided
                         a number of recommendations to each field
                         office that need to be implemented.

                         USIBWC recently transferred data to a new            Closed
                         system. During reconciliation, USIBWC found
                         more than $4 million in differences.

                         We noted that the Property Officer has access         Open
                         to recordkeeping and conducts the physical
                         inventories of assets. There should be a
                         separation of duties between accounting for
                         assets and custodial or operating
                         responsibilities.


 2. Undelivered          We noted that USIBWC did not have adequate            Open          See observation 3.
    Orders               control over undelivered orders (UDO).
                         Management performed an assessment of open
                         UDOs but failed to deobligate those items it
                         identified as unnecessary. USIBWC does not
                         have specific procedures that detail the UDO
                         review procedures; rather, it follows
                         requirements for the reviews contained in
                         Department of the Treasury and Government
                         Accountability Office guidance.




   2
    Management Letter Related to the Audit of the International Boundary and Water Commission, United
   States and Mexico, U.S. Section, 2009 and 2008 Financial Statements (AUD/FM-10-20, June 2010).
                                                                               Appendix A 

                                                                                Page 5 of 5 


   Observation                                                                       FY 2010
                                FY 2009 Observation                   Status
    Number                                                                           Comment

3. Payroll          We noted the following discrepancies during       Open       See observation 4.
   Compliance       our testing of payroll compliance:
                    • Premium Pay – Actual premium pay for
                         two of six employees did not match the
                         auditor's calculations.
                    • Retirement- Withholdings for six of 50
                         employees did not match the auditor's
                         calculations. Contributions for five of 50
                         employees did not match the auditor's
                         calculations.
                    • Thrift Savings Plan (TSP) – Two of 50
                         employees did not have agency
                         contributions for the TSP as required.
                    • Health Benefits – Two of 50 employees
                         had both withholdings and contributions
                         that did not match the auditor's
                         calculations.

                    Employees have the ability to make changes to
                    their payroll withholdings electronically via
                    "Employee Express.” The Office of Personnel
                    Management (OPM) has guidelines for filing
                    documents in personnel folders, including
                    documentation of benefit enrollments
                    processed electronically. USIBWC is subject
                    to OPM personnel recordkeeping authority.


4. Earned Revenue   During audit work, we noted that six of 43        Open       See observation 5.
                    items of earned revenue tested had
                    discrepancies. Four of the discrepancies were
                    attributable to revenue not being recorded in
                    the proper period. USIBWC could not support
                    that it had approved one item. In addition, we
                    were unable to reconcile two items with the
                    accounts receivable amount.
                                                                                                    Appendix B 

                                                                                                    Page 1 of 9 





                      I ~Tf ~~A l W>'A L "0( 'I"'~\ ' ' '' 'MTt ~ ((" "II'~~!'<
                                    r Si non 1>1A! f.' ~~p ' ''-~1rO

                                                 1oU'{), 2011


United StMH ~''''nI of State
Blo.deMtng 6o;Md of ~
0fIic:0I oI lnspedOl o.ro.r.I
Attn : Mr Harold GMeI, DoIpuIy lnlpectc.rc...r ..
Room 8100, SA·!
2201 CSt...... NW,
~,DC                  20520-0X18




T~rII< rou lor ,.. Of'PO'ILIniIy to PfO'IiIIe I _ o e \0 tt. """'_ on 1'- draft
roe..""", OIUdolOt". ,epon on the _             tta1emenb 01 til In""",""," _ 0""
MCI Wtte! CO,,", ' 1I'on, Uni*! St.te.lrocI Me<ioo, U,S s.o:cion IUSIBWq,'" 0/, ond
lor m. re-.. ...oed SepWnbe! 30. 2010 ond 200g.

                         Uu tmenl 01 1'- . _ tOIll 01 reapondng '" ODII!I anIerI '"
bring  w.,_
,... )'OU .... _ ". 1'-
                      IIU_ _ 1M into oompIionce with en."",,,,.,oIIll1aroclarcllllu
_       • I 'objt('! 01 _iv<I d;.a.1iI>n .. _     ~ 01 USiBWC. "'"
• .tern.. .ooitotl ond til 0rII00 01 Inspeaor ae-.. lor ___ veao'l aU!lng _
1ite!",,10 ~ioa~I _'~ . We recognlz. that. ... $UCI1, ItIiI ill. matt..
01 ",oItllionai judgr'roen( on _     in<I~ can I!ifIeo WI (01)_ that the ""*'ted
";1 bIc:orne' ~ in 20 11 , ~ c:o, .... lioo, o I _trucl:ion of the b1!31rMn1
Joci4ity" Q _




oc:   ~     Foni. CAO
      CIv,""",,*, PIo'1! .... CPA


            • (',         ' Ho _   , ('     1,,1 • .,70 \. Mo.-'" ,",,-~ • • I ... ~ .. k ... _ 1
                                          ~,,~

                    '""'~" l l!" · .-H'( ,,"I< , I') 11 ..... . ..,.li~~. """' ... . f'~
                                                                                           Appendix B 

                                                                                           Page 2 of 9 



Please accept this letter as Our response to the yom requBs1 for commelltson the Draft
Management Letter Relaled to the Audit of tile Intematiorlal Boundary and Water
Comrn~sion . United States and Mexico, U.S. Sectiorl, 2010 and 2009 Finam:ial
Sta1ements

                             Observations
                                      -
                                      .
                                          and Co.nelusiofls
                                              -

1. Property. Plant and Equipment

 he Imernatiomll Boundary and Water Commission, United Slates and Mexico, U.S.
Section (U8IBWC). has taken steps to improve interrlal controls related to property an<!
equ ipment. However, peifSonal property is developed from a source other than the
general ledger. DUrir19 our recolloiliation of the persorlal asset detail report to the
corlsolidated trial balance, we identified the following:

   •   Nine leased veh icles that were emlfleoLJ1Sly recorded as purchased veh icles
       because the incorrect acquisitiorl code was used.

   • One Item that was processed for disposal but. was not disposed of because of an
     error In IheaCoollntlng~ system,

   •   One itl!lTl that was a duplicale of an item Ihat was di$posed of.

   •   Three items thai had negative current year depreciation.

In additi.olil. as noted during p.revious year aud its, lhe Property Officer has access to
record keeping; 81ild (xlilducts the physical inventories of assets. US IBWC officials stated
that hiringl an individ uallo perlorm one ofthese fulilctions would nat be cost effective.

We recommend /hal USIBWC perform more frequent reconciliations of property sa ttJat
emlfi; are identified aoo corrections can be made before the preparation of Ihe financial
statements,
We reoommend that USISWC estabIish separation of duties (or recordkeeping and
physfcal lflllenlories e-s perSOnnel are avaflable.

Agency Response:

USIBWC partially ooncurs with the observation. The USIBWC has made signilicalill
progress in correcting erroneous enlries in the lliltegrated logistics Management
System (lLMS), whicll required the assislance of Department of State systems exports.
In addltion, the USIBWC has implemented more frequent reconcHialions of property


                                              2
                                                                                 Appendix B 

                                                                                 Page 3 of 9 




between ILMS and GFMS, now being aCGOmplisned on a quarterty basis, 10 respond
and cermet any elIors, that may be encountered during !he reconciliation.

In compliance Wlllh the separation of dulles requirement, the Property OffICer OOllducts
inventories of personal property at all field office locations, prepares an Inventory report
of findings and observations for the field managers, detailing specific items requiring
corrective aotlon by Ihe field personnel. Required coHections identified in the report are
accomplished solely lly tile designated emproyee from the respedive field office. No
changes 10 the ILMS system are made by the Property Officer. ThIS process ensures
Ihe required separation of duties,

Previously, !he Property Officer conducted inventories of property Elt the HQ and mEide
required correclions to the system. This was Ihe prooess in absence of another
available employee In Ihat speoific area, SlI'IOO August m2010. ltJe USlBWC hired a
supply technician who Is charged with the responsibility of oondLlC6ng mventories at ~he
HQ. The Property OffICer wm process transactions as required , based on documented
results of the Supply Technician's inventory. These new procedures and responsibilities
wi ll be incorporaled Into the existing Property Management Directive ,


2,   Accou !l!~Be",effabJe
During olJr testing, we nOled several instances In which accounts receil/able were not
recorded ln lIle proper penod,

We recommend that USIBWC ensure transactions            ate being posted to the general
ledger in OJ timely and appropriate manner.

Agency Response:

The U'SIBWC conours with the observation, The receivables idenlifled as ,recorded in
the wrong period were related to fuel and maintenance wort for GSA leased vehicles.
Reports are reoeilied from the field offices· on !he 10t day or the following month. i.e"
                                                           h

M~,ch reports are receil/ed on the 1011> of April. The exisllng process does not require
rield personnel to&t.lbmil amounts and supporting documentation by Ihe last day of each
q\l<lrter, syooequently Finance l1ai no way of knowing the receivable amounts prior to
month end clO<Sil'l g for eat:h qua rter(March) , For example. the March (ecetvable amounls
are posted in April,

We will establish a monthly/quarterlylannualestlmate In the accounting system lor !hose
receivabl@s lhat are nol reoord d in the appropriate month, In addition, we will work on
implementing a new proces.s which requires all agency proponents 10 submit month-end
                                                                                    Appendix B 

                                                                                    Page 4 of 9 




amounts or estimates before the end of the month, and or establ"h a cut-off to ensure
all estimated amounts are properly recorded in tml proper period.

Implementation oUnnlal oorrectlve actlons will be acoo :pllshed by May 31 , 2011.


3. Accounts Payable

During our t8stil'l9. we· nOled a transaction of significant dollar amount that had been
processed without the proper approvlll9 sigl'latures.

We reoomll'Kllld thaI US/BWe ensure /ronsactFolts have obtained aI/ raqlJil'fl{j &pprovals
b8f()re blJing procfJScsed for disbursement.

Agency Respon$e:

Non-concur. Existing process requires that all payments processed require appropriate
Signatures prior to sciled 111'19 of paymel'l However, appropriate signatures are
obtained on different documents. We concur that not all signatures are on same
documenl. but Ce.rtlfylog Officers did appnwefSlgn the tom;· S 1166 'Voucher and
Sdledu leof Payments' fo all payments certified for processing by the US Treasury. In
\tie future , we will ensure that Ihe Certifying Officers appro~elsjgn both the fOIm SF
116<1 Miscellaneous Reimb rsement Voucher or the form Sf' 1012 Travel VGucher, and
the form SF 1100 Voucher al'ld Sohedule of Payments.

The FSD Supervisor will review & inilial off that the appropriate signatU f!)$ have been
obtained prior to processing any payment for disbursemenl

The policy has al ready been implemented dl.lring the month of Ap(1 201 1.


4. Undelivered Orders

We notBd that USI BWC did not have adequate COrIlJO' over undelivered orders (UDO).
Management performed an assessment of open UDOs but failed to deob[igate ~ems it
identified all un n~sary. USIBWC does not have specific procedures that detail the
U DO review procBdures; rather, it fOllows requirements for the, re-oill;!W'S comained itl
Department of the Tre<l$u/y and GOl/ernmenl AccoLlnlabllity Office guldance.

We reoomfMInd tilat US/BWC Cff}ate agenWSfJ9ci!ic procedures for rlJviewing
undelivered orriers. Th6 procedures ShtXJld inoJude steps for action to be taken by
manaqement on resufls of I6views (0 ensU/tl the uM9eded obligations are promptly
deobligared.

                                            4
                                                                                Appendix B 

                                                                                Page 5 of 9 




Agency Response:

The USIBWC concurs with the observation; obligations that were no longer needed
were flat de.obligaled.

BUdget and Finanre will develop an SOP for lhe review open obligations !O include who
is respOflsjble for takil'l9 appropriate action to clear those obligations that have been
identified as candidates for d&-Obligatioil,

We will oompll$te Ihe SOP by May 31 , 2011 ,


s.   P'!)'TOJI Gompl1anm

We noted discrepancies d r;ng our les ing of payroll compliance:

     •   Pay rate V&Iification - The pay rate determined by the aud ilor bas.ed o~
       (jocumented OPF pay scale did not match the acl1Jal pay for 3 out of 51
       employees.
     • Prem1urn Pay . Premium pay rates did not match aclual premium pay rates for 3
       out of 5 employees.
     • Retirement - Wllhholdlngs lor 11 0 51 employees did flol malOh the allditor's
       calcu lations, In addition. agency contribution.s for 9 of 51 employees did flat
       match !he auditor's caltlJlatlons,
     • Health Benefits - 2 of 51 employees selected tor testing had employee
       withholdings and 1 out of 51 agen.oy oonlJibul1ons that did not match the auditor's
       calculaijons·.

Efilployees have fhe ability to make changes to thelrpayroll with holdings electronically
via ' Emptoyee IExpress.' The Office of Personnel Management (OPM) l1as guidelines
for filiAg documents in personnel folders., includiflg documentation of benefit enrollments
processed eleclronically. USIBWC is subject to OPM personnel reoordkeeping
authoIity.

We recommend that US/BWe devise an agerJcy-~fic policy for cJJanges made by
employees to IhfJir bS/'I8ffts VI"8 Employee E;tpress. Guidelines snonk) inc/tide
requirements for empfo}'fles to notify the agency of any changes made and to provide
OPM 8pproveddocumsntatkln of enrollments proOBSSed elecfronically, These
documents should be properly filed and maintained in 1h9 personl1e1 folders.
                                                                              Appendix B 

                                                                              Page 6 of 9 



Agency Response:

The USIBWC concurs with the observation. The Human Capital Office is currently using
the EPIC personnel processin9 system, which does IUlt facilitat~ the maintenanC$ of1 h~
referenced files. However. the HCO has impl€mented a lemporary work around
solution, and has also received notification of funding approval for a more modem and
automated HR processing system that will take place in 2012.

The HCO was able to recenl/y print the benefit lettefs (FEHB and TSP) referenced by
the auditors and include them in the personnel foklers.

Once lI1e USIBWC HCO becomes automated, th is informaoon will automatically be filed
into Ihe eOPPs.


6. Commission Authorizati.on Laws (22 USC 277)

During our testing of representation expenses, we noled that three 01 five transactions
sampled did not have proper approval by a CI;lnifying official.

We recommend that us/awe ensure that a/I representation exps/rslts are approved by
an appropriate certifying afflr:ia/.

Agency Response:

Non·concur. Existing procedures require that 8.11 required approvals are obtained prior
to SCheduling a payment We coJlClJr however, that required Sig natures exist on mOIl!
than one document for each transactions. For example, an SF 1164 form is used for
represenlation expense reirnbursements. This farm is signed by the requesting and
approving official, but is not signed by (he Certifying Officer. The Certifying OIIicer
oompletes and signs an SF 1166.

The Finance & Accounti 9 office is now requiring thaI all Certifying Officials provide
their reviews and approvals on the same farm. In addition, the FSD Supervisor is now
reviewing all payment requests and will inilial off that the appr~priate signatures have
been obtained prior 10 processil)g any paymenl for disbursement Accounting Techs
are nol authorized Ie schedule a payment unless the FSD Supervisor's initials and date
are on the form,
The poliey has already been implemented during the month of Aplii 201 1. These
changes WIll be incorporated inta the existing SOP on Accounts Payable.



                                           6
                                                                                     Appendix B 

                                                                                     Page 7 of 9 




7. Earned Revenue

During audit work, we nolEd that four out of 12 transactions sampled were recorded in
the incorrect period.

We- recommend that USJBWC ensuro that earmld f(lV(IJlW lr.msacJiQns are recorded in
the proper period.

Agency Response :

The USIBWC concurs with tile observation. The earned rev-enue r ey Identlf.ed as
being recorded in the wrong period were the fuel and maintenance walk that we
perform on the GSA least'-d vehicle1.i. We get the reports from the field offic-es on t e
10lh day of too following month, we reeel\/{) d1e Ma.rch reports on the 1O!.h of April, alld So
we have no way of knowing the receiva..ble amounts prior to month end closing for
March. Th@ March BarM d revenue amounts are posted in April.

We can establish a monthty/quanertylannual estimate in the a.ocounting system for
!hose earned revenue that are not recorded In the appropriate month.

We will implement the conecbve actiolls by May 31, 201 1.


8. Unexpended Appropriations

Based on testing, the ma nnef for determining the correct balance is not based On the
aJnounllisted in lhe gfmeral ledger. While lJ1e prooes$ for determining the appropriate
balance was determined to be effectiVe, there are no dOClJmented standard operating
procedures for these accounls.

We reoomme-nd that US/BWe dtJVtJ/op account specific standard operating procedures
relating /0 unexpended lippropriations

Agenc), Response:

The USIBWC COrlCLIIS with Ihe observation;. the general ledger did not reflect the correct
amount for Unexpended Appropriations.

The US1BWG uses the Departml!nt's of State's Global Fil1ancial Management System
(GFMS)" 8fld rely on 1116 design Clfldcontrofs of the system to process all accounting
transactions, extract flnancral reports, and pmparing reqLlit d financial statement.s. The
USIBWC does not have control over the- de$ign or development of Ule system , The
USIBWG is however, wolting with Management from the Depanment of Slate to

                                              1
                                                                            Appendix B 

                                                                            Page 8 of 9 




mitigate the discrepancles encountered between budget and flCCoun IlQ data and
reporting,

In the inlerim, we wiD develop an SOP for revrewing the Unexpended Appropriatio/'lS in
lhe general ledger ac~ounlS. We will have the SOP completed by May 31, 2011 . We
have already implemented a monthly reeo d ilation of the Unexpended Approprtations.


9. Journal Vouchers

We noted two areas of weakness in the cor'ltrols over journal vouchers and journal
voucher processing. USIBWC does not have standard operating procedures for the
procesSfng ·01 Journal Vouchers. Addi~ionally. journal vouchers are prepared and
approved try the same individuals.

We rocommend that US/BWe prepare written pmoodures for Ihe proceSlJingof1ol1ma}
voucher /hal wiTt provide for separation of dlJli~s whtm preparing and approving journal
vouchers,

Agencv Response:

The USIBWC concurs with the obsetVation. We will write an SOP fOI the processing
aAd app oval of Journal Vouchers.

We wlll complete the SOP by May 31 . 2.011 and implement the policy upon completion
of the SOP.




Altl'lough USIBWC has some directives In plaoe that deal with environmental liabilities,
they do not apeclficarly address procedures to recognize, estimate and record
e-rwirol'lment.al liability amounts. In add~[(ln. Directive Volume III Chapler 503 -
"Pollution Prevenllon :Plan" Is outdated .

We recommend Ilial USIBWC I\lview Volume iii Chap/I)( 503 'Pollulfon Prevention
Pian' and consider revising as 10 re"ecr CUJTent and emerging issues end trends.
Additionally, USiBwe   should create agenoy specifio standard operating procedlires for
rerognizing. estimating, and recording environmenta/liebl/llies.




                                           8
                                                                        Appendix B 

                                                                        Page 9 of 9 




Agency RHpon..:

The USlBWC OOOOJIS with !he obs8l\'lltion, We wil review Volume HI Ch;lpter 503
"Poliubon Prevention Plan" ;lnd will revise the Dnctive to reflect current and emerging
Issuet and trend! by Septembef 30, 2011.

In addition, 'MI concur with the finding that USIBWC should ClNte ag~ specifK:
standard operaloo procedlKes for recognizing, estimating, and recording enYironmenla1
liabilities. We will also hIve the SOP's ~leted. as indicated in Ihi! observation, by
September 30, 2011 .




                                         •
